        OIG received an allegation that -(hte                           1-4
                                                                   subject),

F             the institution), had declined an applicant for a post-doctoral position in his
 a oratory because the applicant was a white citizen of South Africa. The complainant included
copies of a letter to the editor of a scientific magazine and letters from the President and the
General Counsel of the subject's institution, respectively. The letters establish that the subject
informed the applicant that the subject's "laboratory has decided that it must support the boycott
of scientific exchanges with South Africa . . . ." The letters from the President and General
Counsel state that the institution did not learn of the subject's action until after the fact, and the
letters stated unequivocally that the subject's action was contrary to the policy of the institution.

       The subject is the Principal Investigator on a three year award from NSF,
for a total of $30,000 for a                   . The budget is composed of 1-(
subject's computer ($5,000),(2                    on a                 ($14,765), and (3) indirect
costs ($10,235). There is no

       Under federal law, "No person in the United States shall, on the basis of race, color, or
national origin, be excluded from participation in, be denied the benefits of, or be subjected to
discrimination under any program or activity receiving Federal financial assistance. " 42 U. S .C.
5 2000d. There is no nexus between the subject's NSF award and the non-hiring of this
researcher: the NSF award is very small, and includes no funds for the employment of any
personnel; thus, it cannot be said that this discrimination occured under the NSF award.
Furthermore, it is clear that the subject's institution intends to comply with the law and has
communicated to the subject that his action was contrary to the institution's policy as well as the
law. Accordingly, this case is closed.




counsel to the Inspector General


concur:   B             v"/'J

Assistant Inspector General for Oversight
